OIG Investigative Reports, Milwaukee, WI., August 01, 2012 - Former Teacher Pleads Guilty To Defrauding the U.S. Department of Eduction and Internal Revenue Service
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRCIT OF WISCONSIN
NEWS
Former Teacher Pleads Guilty To Defrauding the U.S. Department of Eduction and Internal Revenue Service
FOR IMMEDIATE RELEASE
August 01, 2012
James L. Santelle, the United States Attorney for the Eastern District of Wisconsin, announced that Shurone Y. Goodlow, also known as, Shurone Y. Nash (age: 43) of Milwaukee pleaded guilty to wire fraud and filing a false tax return. Based on the guilty plea, Goodlow faces up to 23 years in prison and fines of up to $500,000.  Goodlow has also agreed to make full restitution to the Department of Education in the amount of $65,500.
Goodlow, a former teacher with the Milwaukee Public Schools (MPS), admitted that between 2002 and 2008 she used two identities and two social security numbers to defraud the United States Department of Education and the Internal Revenue Service. Specifically, in order to exceed the aggregate loan limits for graduate school, Goodlow alternated between the two identities when applying for federal financial aid and falsified, among other things, her income with MPS.  As a result of her fraud, Nash was able to obtain approximately $65,500 in federal financial aid to which she was not entitled.
Goodlow also used the two identities to obtain tax refunds to which she was not entitled in the amount of $27,250.  Under one identity, she omitted her MPS income to qualify for refunds under the Earned Income Tax Credit program. Under the other identity, Goodlow falsified withholding amounts to obtain refunds to which she was not entitled.
This matter was investigated by agents from the Department of Education Office of Inspector General, as well as agents from the Internal Revenue Service Criminal Investigation. The case is assigned to Assistant United States Attorney Gordon P. Giampietro for prosecution. Goodlow's sentencing is scheduled for November 8, 2012.
#    #      #      #       #
Top
Printable view
Last Modified: 08/23/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov